<html>
<title> - STRENGTHENING THE SENIOR EXECUTIVE SERVICE: A REVIEW OF CHALLENGES FACING THE GOVERNMENT'S LEADERSHIP CORPS</title>
<body><pre>[Senate Hearing 112-74]
[From the U.S. Government Publishing Office]



                                                         S. Hrg. 112-74

                   STRENGTHENING THE SENIOR EXECUTIVE
  SERVICE: A REVIEW OF CHALLENGES FACING THE GOVERNMENT'S LEADERSHIP 
                                 CORPS

=======================================================================

                                HEARING

                               before the

                  OVERSIGHT OF GOVERNMENT MANAGEMENT,
                     THE FEDERAL WORKFORCE, AND THE
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                                 of the

                              COMMITTEE ON
                         HOMELAND SECURITY AND
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE


                      ONE HUNDRED TWELFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 29, 2011

                               __________

         Available via the World Wide Web: http://www.fdsys.gov

       Printed for the use of the Committee on Homeland Security
                        and Governmental Affairs



<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>



                  U.S. GOVERNMENT PRINTING OFFICE
67-120 PDF                WASHINGTON : 2011
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

               JOSEPH I. LIEBERMAN, Connecticut, Chairman
CARL LEVIN, Michigan                 SUSAN M. COLLINS, Maine
DANIEL K. AKAKA, Hawaii              TOM COBURN, Oklahoma
THOMAS R. CARPER, Delaware           SCOTT P. BROWN, Massachusetts
MARK L. PRYOR, Arkansas              JOHN McCAIN, Arizona
MARY L. LANDRIEU, Louisiana          RON JOHNSON, Wisconsin
CLAIRE McCASKILL, Missouri           JOHN ENSIGN, Nevada
JON TESTER, Montana                  ROB PORTMAN, Ohio
MARK BEGICH, Alaska                  RAND PAUL, Kentucky

                  Michael L. Alexander, Staff Director
      Nicholas A. Rossi, Minority Staff Director and Chief Counsel
                  Trina Driessnack Tyrer, Chief Clerk
            Joyce Ward, Publications Clerk and GPO Detailee


  OVERSIGHT OF GOVERNMENT MANAGEMENT, THE FEDERAL WORKFORCE, AND THE 
                   DISTRICT OF COLUMBIA SUBCOMMITTEE

                   DANIEL K. AKAKA, Hawaii, Chairman
CARL LEVIN, Michigan                 RON JOHNSON, Wisconsin
MARY L. LANDRIEU, Louisiana          TOM COBURN, Oklahoma
MARK BEGICH, Alaska                  JOHN ENSIGN, Nevada

                     Lisa M. Powell, Staff Director
                       Christine S. Khim, Counsel
               Alan Elias, Legislatve Assistant Minority
                      Aaron H. Woolf, Chief Clerk















                            C O N T E N T S

                                 ------                                
Opening statement:
                                                                   Page
    Senator Akaka................................................     1
    Senator Johnson..............................................     3

                               WITNESSES
                        Tuesday, March 29, 2011

Nancy Kichak, Associate Director for Employee Services and Chief 
  Human Capital Officer, U.S. Office of Personnel Management.....     4
Carol Bonosaro, President, Senior Executives Association.........    14
Max Stier, President and Chief Executive Officer, Partnership for 
  Public Service.................................................    16

                     Alphabetical List of Witnesses

Bonosaro, Carol:
    Testimony....................................................    14
    Prepared statement...........................................    38
Kichak, Nancy:
    Testimony....................................................     4
    Prepared statement...........................................    31
Stier, Max:
    Testimony....................................................    16
    Prepared statement...........................................    48

                                APPENDIX

Background.......................................................    57
Statement of Jeffrey D. Zients, Federal Chief Performance Officer 
  and Deputy Director for Management, Office of Management and 
  Budget.........................................................    63
Senior Level Pay Systems.........................................    66
Questions and responses submitted for the record from:
    Ms. Kichak...................................................    76
    Ms. Bonosaro.................................................    80
    Mr. Stier....................................................    83

 
                        STRENGTHENING THE SENIOR
                     EXECUTIVE SERVICE: A REVIEW OF
          CHALLENGES FACING THE GOVERNMENT'S LEADERSHIP CORPS

                              ----------                              


                         TUESDAY MARCH 29, 2011

                                 U.S. Senate,      
              Subcommittee on Oversight of Government      
                     Management, the Federal Workforce,    
                            and the District of Columbia,  
                      of the Committee on Homeland Security
                                        and Governmental Affairs,  
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 10:04 a.m., in 
room 342, Dirksen Senate Office Building, Hon. Daniel K. Akaka, 
Chairman of the Subcommittee, presiding.
    Present: Senators Akaka and Johnson.

               OPENING STATEMENT OF SENATOR AKAKA

    Senator Akaka. This hearing will come to order.
    Aloha and good morning to everyone. Thank you so much for 
joining us as the Subcommittee on Oversight of Government 
Management, the Federal Workforce and the District of Columbia 
meets to examine challenges facing the Senior Executive Service 
(SES).
    Today's hearing on strengthening the government's 
leadership corps is timely and important in this challenging 
climate. Agencies and Federal employees are being asked to do 
more with less. Looking for ways to cut costs without 
compromising agency missions, they are rising to the challenge 
even while facing uncertainty about future resources and 
personnel.
    As the Federal Government's senior managers, the SES is 
responsible for leading the workforce through these difficult 
times. The SES is essential to driving management priorities 
and promoting efficiency within agencies and across the 
government. Each year through Presidential Rank Awards, we 
recognize outstanding senior executives whose innovation and 
management expertise save taxpayers billions of dollars. I am 
proud that such talented people have chosen a career in public 
service, and I believe that America has benefited as a result.
    Although the SES is critically important to efficient and 
effective government, it has been a number of years since 
Congress took a comprehensive governmentwide look at the Senior 
Executive Service. Like any workforce, it faces its share of 
challenges. Many top candidates do not want to apply to the 
SES. For years this Subcommittee has been working to fix the 
broken Federal hiring process, and we have made quite a bit of 
progress working closely with the Office of Personnel 
Management (OPM).
    But the hiring process for senior executive jobs is even 
more complicated and longer than other jobs. A survey of chief 
human capital officers and upper level General Schedule (GS) 
employees in 2009 found that the complex process deterred many 
employees from applying to the SES. It is time to focus on 
fixing the SES hiring process.
    To make matters worse, there is little financial incentive 
to join the SES. In 2004, Congress enacted reforms that created 
a pay-for-performance system, raised the cap on SES pay and 
eliminated locality pay. The SES pay range is linked to 
congressional pay and over time it has not increase as fast as 
GS pay. As a result, the General Schedule pay scale overlaps 
substantially with the lower end of SES, particularly in areas 
where GS employees receive higher locality rates.
    Members of the SES carry critical responsibilities, often 
work long hours and have fewer employee protections, but they 
may bring home smaller paychecks than the employees they 
manage. The same 2009 survey found that many senior GS 
employees did not apply for the SES in part because the 
overlapping pay, often called pay compression, creates a 
financial disincentive.
    These general recruiting challenges have made attracting 
diverse candidates to government service and the SES even more 
difficult. In 2008, Congressman Danny Davis and I held a joint 
hearing to explore the issue of SES diversity. We also 
introduced legislation in the 110th and 111th Congresses aimed 
at increasing SES diversity. There has been slow progress. As 
of June 2010, only 17 percent of SES members were ethnic 
minorities, up from 16 percent 3 years before, and only 31 
percent were women, up from 29 percent.
    So I am pleased that President Obama and OPM are also 
focused on this issue, creating the Office of Diversity and 
Inclusion (ODI). However, much work remains to be done.
    With 90 percent of the SES workforce eligible for normal or 
early retirement, it is critical that agencies focus on these 
pressing recruitment challenges. We also need to make sure 
Federal employees are prepared when they apply for SES. This 
means mentoring employees throughout their careers and 
identifying those with leadership abilities. Agencies also must 
invest in in-depth opportunities, including interagency 
rotations.
    The important topics we are exploring this morning involve 
complicated issues without easy solutions, but the first step 
is focusing attention on the need for reform. I look forward to 
hearing from our witnesses this morning.
    And now I would like to call our Senator Ron Johnson for 
any comments he has to make, or an opening statement.
    Senator Johnson.

              OPENING STATEMENT OF SENATOR JOHNSON

    Senator Johnson. Well, thank you, Senator Akaka. I would 
also like to thank the witnesses for your time and preparation, 
and coming to testify and be witnesses here today.
    First of all, I do want to thank you, Mr. Chairman, for 
holding this hearing. This is extremely important. Our Federal 
Government, this year, is facing a $1.65 trillion deficit. We 
simply cannot afford to have inefficient and ineffective 
government. And, if we are going to become more efficient, if 
we are going to become more effective, it absolutely requires 
leadership, and that points to leadership from top managers 
within our government.
    In reviewing the briefing materials for today's hearing, I 
thought it was somewhat interesting the SES, my understanding, 
was created about 32 years ago, in 1978 under the Civil Service 
Reform Act (CSRA). That is about as long as I have been in 
business. And just so the witnesses know, my background really 
is in building a business over the last 31 years from a small, 
to what I would consider a medium-size business. So I have gone 
through the challenges of hiring talent, top talent, in the 
private sector.
    So my perspective--I think the questions I will be asking--
is going to come from that perspective of a small, innovative, 
lean, mean type of management machine which of course is what 
government is not.
    And I think in today's economic environment with the 
budgetary constraints, I think that is exactly the type of 
culture, a culture of continuous improvement of efficiency and 
effectiveness, that we have to try and bring to government 
because--let's face it--we ask government to do an awful lot 
and they are going to end up having to do a lot more with less 
money. So we are going to have to become efficient.
    But, Senator Akaka, I want to second what you said about 
the quality of the workforce. I mean in my very short period of 
time here I have met a number of people who work in agencies, 
and they are top-flight people. They are dedicated. They are 
hardworking.
    And so I think the question is how can we retain, how can 
we attract top people to provide that type of effective 
leadership because in the end leadership is just incredibly 
important.
    So again, I am looking forward to hearing the testimony. 
And, as a manufacturer, I am always looking for the root cause. 
So I guess one of the questions I will be starting out, and you 
can start thinking about it now, is what was the problem we 
were trying to solve in 1978, how well have we solved it and 
what needs to be fixed.
    So with that, I will turn over to Ms.--is it Kichak? 
Kichak, OK. Or, I guess probably back to the Chairman. You 
probably will turn it over to her, right? Thank you.
    Senator Akaka. Thank you so much, Senator Johnson, for your 
opening statement, and that helps us set the tone for today's 
hearing.
    I would like to welcome today's first witness to the 
Subcommittee--Ms. Nancy Kichak, Chief Human Capital Officer 
(CHCO) and Assistant Director of Strategic Human Resource 
Policy at the Office of Personnel Management (OPM). She has 
been before this Subcommittee many times and has been very 
helpful to us over the years.
    As you know, it is a custom of the Subcommittee to swear in 
all witnesses, and I would like to ask you to please stand and 
raise your right hand.
    Do you swear that the testimony you are about to give this 
Subcommittee is the truth, the whole truth and nothing but the 
truth, so help you, God?
    Ms. Kichak. Yes.
    Senator Akaka. Thank you. Let it be noted for the record 
that the witness answered in the affirmative.
    And I want the witness to know that while your oral 
statement is limited to 7 minutes your entire statement will be 
included in the record.
    Ms. Kichak, will you please proceed with your statement?

  STATEMENT OF NANCY KICHAK, ASSOCIATE DIRECTOR FOR EMPLOYEE 
    SERVICE AND CHIEF HUMAN CAPITAL OFFICER, U.S. OFFICE OF 
                      PERSONNEL MANAGEMENT

    Ms. Kichak. Thank you, Chairman Akaka and Ranking Member 
Johnson. Thank you for inviting me here today to talk about the 
current State of the Senior Executive Service.
    We are in an unusually challenging period for the SES and 
for the civil service generally. Members of the Senior 
Executive Service are the leaders charged with recognizing 
challenging environments, overcoming obstacles and bringing 
about change in the way government does business. At a time 
when we truly need the best and the brightest in our executive 
corps, and when senior managers are expected to achieve even 
greater results with limited resources, the funds available for 
executive pay, awards, training and professional development 
are severely limited.
    At the same time, career SES members are being asked to 
lead and motivate a workforce whose own compensation and career 
opportunities are under attack. However, the government's 
senior leaders have been chosen carefully and will rise to the 
occasion.
    Last year, the President's Management Council (PMC) 
launched an initiative on improving the SES led by (OPM) and 
the Office of Management and Budget (OMB). OPM and OMB began by 
consulting with a range of experts including past and present 
SES members, the Senior Executives Association (SEA) and the 
Partnership for Public Service (PPS). A number of working 
groups were formed, representing 19 Federal agencies. We are 
now working to implement their recommendations in the areas of 
senior leadership engagement, recruitment and career 
development.
    More than half of current SES members will be eligible to 
retire within the next 2 years. As these leaders are replaced, 
we must recruit from the most talented, diverse, high quality 
pools of executive candidates, including sources outside the 
Federal Government. The PMC working groups are currently 
coordinating among agencies to jointly recruit SES candidates 
with marketing and outreach strategies focused both inside and 
outside the government, with the objective of appropriately 
supporting diversity and veterans' employment.
    Agencies cannot expect to have an effective senior 
executive corps if they do not provide robust career 
development opportunities. Some techniques for fostering career 
development in this current fiscal climate include agencies 
pooling resources to provide shared educational offerings and 
partnering to share rotational opportunities.
    Another major element of the SES initiative is improving 
performance management. Under the PMC initiative, an agency 
working group is developing proposals to improve certification 
and performance management. The President's Management Advisory 
Board, made up of leaders from the private sector, is also 
sharing its knowledge of effective private sector practices.
    We are working to improve the hiring process and reduce the 
current time to hire of 117 days. One improvement is allowing 
the applicant to apply with a resume that provides evidence of 
Executive Core Qualifications (ECQs). An independent 
Qualifications Review Board (QRB) confirms the qualifications 
have been met.
    As you said in your opening statement, Mr. Chairman, we 
have made some progress on diversity, but it is not enough. We 
cannot be complacent about the importance of stepping up our 
efforts. We strive not only to improve the diversity of our 
senior leaders but also to foster a culture of inclusiveness.
    Measures designed to enhance diversity within the SES 
include connecting agencies with special emphasis and affinity 
groups, increasing the candidate pool through resume-based 
applications and providing increased rotational assignments for 
potential future leaders. In addition, Director Berry and 
Deputy Director Griffin established an Office of Diversity and 
Inclusion to develop and coordinate governmentwide policy and 
initiatives to promote diversity.
    Finally, we cannot forget that agencies' ability to recruit 
and retain outstanding individuals into our senior executive 
corps is also affected by pay. Senior executives' pay has not 
kept pace with that of the workforce they manage. Nevertheless, 
since most Federal employees' pay is frozen at this time, we do 
not believe it is appropriate to exclude the workforce's senior 
leaders from the freeze applied to the employees they manage.
    We must bring all of our best thinking and creativity to 
bear on how to make our SES recruitment, career development and 
performance management programs as effective as they can 
possibly be. We at OPM look forward to the work ahead.
    Thank you for the opportunity to testify before you today.
    Senator Akaka. Thank you very much. You testified that 
improvements to the SES depend on support from agency heads. 
What steps is OPM taking to engage senior leadership and focus 
attention on cultivating the SES?
    Ms. Kichak. Well, first of all, the President has addressed 
the importance of the PMC, the President's Management Council's 
initiatives. Deputy Director Zients of OMB, has also placed 
emphasis on this along with Director Berry. So, we have the 
very senior leadership of government engaged.
    But in our hiring reform efforts for the government as a 
whole, we have made a major point of the fact that managers 
have to engage in the hiring process, that this is not 
something where you just post a job and somebody in the Human 
Resources (HR) shop looks to see who the best candidate is. So 
that emphasis at the agency level is being driven by the CHCOs, 
as well as by the senior managers.
    So, once we engage the senior managers in all hiring, in 
hiring of the general workforce, it is going to become apparent 
that same engagement needs to happen with the Senior Executive 
Service.
    Senator Akaka. Over the years, one of our challenges has 
been reducing hiring time.
    Ms. Kichak. Right.
    Senator Akaka. As you know, it takes 117 days on average 
from the end of an SES vacancy announcement until materials are 
reviewed by a qualifications review board. OPM is piloting a 
resume-based application process which could be one method for 
reducing hiring time while upholding high standards for SES 
selection. Will you please tell us more about that pilot 
program, including what challenges you have encountered and how 
you are addressing them?
    Ms. Kichak. Yes. Thank you.
    We have three agencies that are using only resume-based 
applications. We also have a working group that continues to 
work on how to improve that process, and we run training 
sessions for the individuals in agencies who are focused on 
overseeing the hiring and the care and maintenance of the SES. 
So we are doing training. We are actively engaging in using it. 
There is nothing like testing it out to make it work better.
    One challenge that we are facing is that some folks do not 
know how to use a resume correctly; they have written a resume 
that they use to apply for any job; and they have not focused 
that resume on what is important to senior leaders.
    What we are looking for are people who can drive change. We 
are looking for people who are going beyond the managing a 
project well to managing a project well when they have to deal 
with many different interests in which some of the interests 
see things differently. So they have to work in somewhat of an 
adverse environment.
    And so resumes that focus on people's activities rather 
than the results they have achieved and how they have changed 
the environment they are currently working in sometimes do not 
pass muster. People need to understand that these are very high 
level, very senior jobs that are driving change in the Federal 
Government.
    Senator Akaka. Another kind of change we are looking at in 
an effort to increase progress is that of recruiting diverse 
candidates to public service. I care deeply about this and we 
have talked about it before.
    Are minorities, women, and other underrepresented groups 
being selected for career development programs at the same rate 
as their participation in the Federal workforce, and what is 
OPM doing to increase their participation in these programs?
    Ms. Kichak. We are currently working with the PMC 
subgroups, or working groups, to develop ways to come together 
as agencies, to not just work in agency silos but to recruit 
across the diverse groups, so that we can increase our 
recruiting powers, so that we are not just waiting for people 
to come to us, but we are reaching out.
    We are establishing relationships with groups representing 
diverse populations. So, that they know the kind of jobs 
available in the Federal Government, and they will be drawn to 
apply for them.
    We are developing candidate development programs that have 
those same qualities, that have searched broadly for candidates 
inside and outside the Federal Government, so we can reach to 
the broadest pool possible.
    So those are some of the techniques we are using to appeal 
to these candidates.
    Senator Akaka. Ms. Kichak, I recently held a hearing to 
explore how the Federal Government could better attract and 
accommodate people with disabilities. OPM keeps data on the 
number of women and ethnic minorities in the SES. My question 
is: Is similar data available for other groups such as people 
with disabilities?
    Ms. Kichak. We do have some data for people with 
disabilities in the SES, and I can get that for you for the 
record. I have it in my notes somewhere, but I am not going to 
dig for it if that is OK.
    Senator Akaka. Yes. Well, you testified that overlapping 
pay rates between the GS and SES create a recruiting 
challenge----
    Ms. Kichak. They do.
    Senator Akaka [continuing]. And sometimes result in 
employees making more than their supervisors. What specific 
solutions should Congress consider to address pay compression?
    Ms. Kichak. Well, we would like to work with you on that in 
the future. We do believe that right now is not the appropriate 
time to promote any kind of increase in pay for the senior 
executives because they are leading a workforce whose pay is 
frozen. And for employee morale purposes, I think that the 
senior executives should be in the same boat with their 
employees. This is a pay-freeze time and a difficult fiscal 
climate, and we in the executive service want to serve 
alongside the people who work for us.
    Senator Akaka. Thank you. Now let me call on Senator 
Johnson for any questions he may have for you. Senator Johnson.
    Senator Johnson. Thank you, Mr. Chairman.
    And Ms. Kichak, again, thanks. Thanks for coming before us 
here today.
    Let me get back to what I alluded to in my opening comments 
about bring me up to speed. What was the purpose of 
establishing the SES back in 1978?
    I mean what was the problem? What was trying to be 
addressed and how well has that been addressed over the last 31 
years?
    Ms. Kichak. It is my understanding that one of the things 
that happened at that time was to make the Senior Executive 
Service more like the private sector. And so the pay system was 
set so that the senior executives got not only a pay increase 
but a larger bonus than is normally given in the Federal 
Government, and that was looked at as part of the SES 
compensation, with the idea of driving more innovation and 
motivating the SES to be more creative and take more risks.
    Over time, in managing through difficult financial times, 
there have been requests to limit the bonuses for the SES, and 
there has been a lack of recognition that the pay system is 
different for the Senior Executive Service than the rest of the 
Federal Government. So, I think that is one thing where it has 
not quite worked out as intended.
    The other thing that is talked about is that the SES should 
be more mobile, and as they are trained they are a corporate 
resource, which is why OPM reviews the final selection of every 
SES. They are supposed to be appropriate for leadership in any 
agency. However, the SES has not moved that much.
    Now, I think the question to ask there is whether that 
original vision was a good vision or whether the fact that some 
SESers are becoming more specialized is also appropriate, and I 
know other witnesses are going to address that. But many of the 
SES jobs are such things as chief information officers (CIOs), 
requiring some technical expertise; chief financial officers 
(CFOs), certainly requiring technical expertise. And so it 
might be time to reconsider that initial vision and recognize 
the fact that with these leadership jobs are such that many of 
them are not simply high-level management jobs but also high-
level technical jobs.
    Senator Johnson. So initially, the SES was set up to 
provide the incentives and a pay differential between just 
general service employees versus managers, and that originally 
worked, but now that pay scale has just been compressed? Is 
that the----
    Ms. Kichak. It has been compressed, yes.
    Senator Johnson. Again, reading the briefing materials, it 
sounds like there is a real reluctance now for GS-14 and 15s to 
move into the SES. I mean other than the pay compression are 
there other problems? Are there other reasons why people do not 
want to move into the higher management levels?
    Ms. Kichak. Well, I would say, first of all, right now we 
are getting good applicants for the jobs. So, the situation as 
to whether folks apply for government jobs does vary with the 
economy, and right now the Federal Government happens to be a 
good place to work because of what is going on outside of the 
Federal Government. However, it has not always been the case 
and certainly was less so 3 or 4 years ago when the economy was 
good and salaries were attractive in the private sector.
    But I think the other issue we are dealing with is that 
these are difficult jobs. I mean there is only one SESer for 
every 250 people in the Federal Government. So, they are high 
pressure, a lot of work, extra hours; and there is risk 
involved; and you are leading change.
    So, if you are looking for work-life balance, an SES job 
might not be the best place to go. You are asked to give more.
    But if you are looking for a challenge and an opportunity 
to really make a difference; and you have the time and stamina 
for the extra hours; it is a good place to be.
    Senator Johnson. Do you have any idea of what the average 
size of governmental entity is being managed by some in the 
SES?
    Ms. Kichak. Well, again, if you look at the numbers of SES 
compared to the population, it is about 1 to 250. Now, that 
means because a lot of the policy offices and some of the very 
senior people are only managing a smaller number, there are 
many SESers managing 500 to 1,000 people.
    Senator Johnson. OK. I was thinking more in terms of dollar 
size. I mean are they managing entities that are on average a 
billion dollars in size, 10 billion dollars? I mean do you have 
any kind of estimate of that?
    Ms. Kichak. I do not, but I can tell you, for example, at 
OPM we have 1 SES manager running the $40 billion Federal 
Employees Health Benefits (FEHB). So, they might not be 
managing a lot of people, maybe only 30 or 40 people, but they 
are responsible for enormous expenditures.
    Senator Johnson. The reason I ask the question is again I 
come from the private sector.
    Ms. Kichak. Right.
    Senator Johnson. So I take a look at what is the incentive 
from somebody, a top-flight manager from the private sector, to 
come in the government and compare the incredible 
responsibilities you have if you are managing a $40 billion 
agency. And somebody in the private sector managing a $40 
billion company is probably going to make more than what an SES 
employee is going to make, correct?
    Ms. Kichak. Yes.
    Senator Johnson. How do we bridge that gap? Is that not 
sort of at the root cause of the problem here?
    Ms. Kichak. I would say two things. No. 1, looking at pay 
is really critically important, but those of us in the SES 
never forget how important it is and what gratification we 
receive from serving our country and making a difference.
    Senator Johnson. And I would agree. People come to 
government for a different reason.
    Ms. Kichak. Right.
    Senator Johnson. I will raise my hand and say that is why I 
do it as well.
    How often do we find let's say retired top-flight 
executives that would actually want to come in government and 
serve their country?
    How easy or how difficult is it for us to actually track 
those folks and bring some of those top-flight managers from 
the private sector on to serve the country later in their 
careers?
    Ms. Kichak. I do not have any data on that; I see people 
coming in to serve, but I do not see any heads of major 
corporations. In my limited experience, I have not seen those 
people coming into the Federal Government. I know it happens. I 
know we have had some of that in the financial industries, but 
I do not think it is the common solution.
    Senator Johnson. OK. Well, thank you. Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Johnson.
    We will have another round of questions for you, Ms. 
Kichak.
    I was troubled, Ms. Kichak, when Government Executive 
reported yesterday that senior executives at the Department of 
Energy (DOE) may be forced to give back performance awards that 
were received at the end of 2010. Will you please explain this 
situation, including the number of affected senior executives 
and whether OPM officials directed agencies to revoke SES 
performance awards?
    Ms. Kichak. OK. The situation reported was that the 
Department of Energy gave two pay raises to SES employees 
within calendar year 2010. The laws and regulations 
specifically prohibit two pay raises within a calendar year 
except under very specific circumstances such as an employee 
changing positions, taking on more responsibility or changing 
agency. None of the exceptions applied. So the Department of 
Energy was in violation of the statute.
    We pointed that out to the Department of Energy. They chose 
to take corrective action and revoke the pay raises that were 
given incorrectly. It impacted about 220 senior executives.
    Senator Akaka. Ms. Kichak, you testified about the 
President's Management Council initiative----
    Ms. Kichak. Right.
    Senator Akaka [continuing]. To provide interagency 
rotational experience for certain GS employees. Will you please 
elaborate on this initiative, including which agencies are 
participating, the length of rotations and any plans to expand 
the project.
    Ms. Kichak. I do not know, specifically, which agencies are 
working on our working group, but in the PMC initiative 
covers--we had 19 agencies participate in all of the working 
groups.
    So, this working group is developing the system, and then 
every agency will have an opportunity to participate in it. We 
are developing a website to enable any Federal agency to see 
what rotational opportunities are available. So, once we get 
the requirements in place, what a rotation looks like and we 
get the website fully operational, we will be able to get all 
of the agencies to participate in that project.
    Senator Akaka. Ms. Kichak, I was pleased that the Office of 
Personnel Management reestablished a Senior Executive Resource 
Office in the year 2009. Please elaborate on this office's 
work, including what role it has in the career development and 
also the SES training initiatives you discuss in your 
testimony.
    Ms. Kichak. OK. The SES office that we have established is 
responsible for oversight of all matters concerning the Senior 
Executive Service. This includes how to recruit and how to 
certify. The office runs the qualifications review boards. It 
is leading these working groups through the President's 
Management Council. It has worked closely with the President's 
Management Council and is bringing together the agencies I have 
talked about on the working group.
    It also was the office responsible for regulating how we 
implemented the previous legislation requiring training for 
supervisors, which I recognize are not the SES, but they are 
often the feeder pool for the SES.
    And it has been working very closely with agencies to start 
collecting data on who is trained, what kind of training they 
have, and what the cost of that training is. We have made a big 
effort to do that. The data is still not very reliable because 
we are relying on the agencies to input it into the system, but 
this office does that.
    The office issues policy on the SES. It also reviews the 
performance management systems for the SES and certifies those 
systems for all the agencies in the Federal Government. It 
makes sure that the performance management systems in place 
drive results and are aligned with the agencies' missions, so 
that executives know what is expected of them.
    So it has brought together all of those functions.
    Senator Akaka. As you know, Ms. Kichak, SES candidate 
development and continued training are inconsistent and vary 
between agencies. I appreciate OPM's focus on candidate 
development, including encouraging agencies to work together 
and pool their resources. Does OPM have plans to help agencies 
implement governmentwide standards for these development 
programs?
    Ms. Kichak. Yes. I should have added that one of the 
additional functions of this SES office is exactly that. The 
standards are already in place for what a good candidate 
development program would consist of. Our office works with 
agencies to help them establish those programs. When the agency 
applies to us for certification of their program, we work with 
them to make sure that certification happens.
    So, we look to see that they are recruiting widely for 
members; that they are paying attention to diversity; that they 
have good training programs in place; and that they have valid 
assignments that their candidates are going to engage in that 
will help them develop adequately. We look to see that 
selections are merit-based because people who graduate from a 
certified candidate development program are eligible for 
immediate conversion into the SES if there is an appropriate 
position available for them.
    Senator Akaka. Ms. Kichak, I thank you so much for your 
responses. This will be my final question, and it has two 
parts. First, what are your top three priorities for 
strengthening the SES in the coming years, and the second is 
what actions should Congress consider to aide these efforts?
    Ms. Kichak. I would say that our first priority is 
recruiting diverse candidates, a wide pool of folks, so that we 
can have a good group of people to select from.
    I would say our second priority is improving the hiring 
process. So, once we have recruited from that group we can get 
them to apply and then move them through the process, so they 
can become senior executives.
    And then once we get them in, I would say our third 
priority is caring for them once they are in, and that is why 
we are working on such things as onboarding and mentoring and 
ways to make sure that when they transition into the Senior 
Executive Service and when we ask them to rise to these 
challenges that we are supporting them in that effort.
    Those were our three.
    And what was your second question?
    Senator Akaka. Yes, the second question is what actions 
should Congress consider to aid these efforts?
    Ms. Kichak. I would suggest that----
    Senator Akaka. Of course, this is legislative type of 
efforts.
    Ms. Kichak. I think a lot of what I have laid out before 
you, we can already do, and we are engaged in those efforts. 
But we would be glad to work with you. I know that you had a 
bill in the past that has some things in it, and we would be 
glad to work with you to see if there are additional things 
such as more training and more developmental opportunities that 
we could work with you on for the future in legislation.
    Senator Akaka. Thank you very much for your responses.
    Ms. Kichak. Thank you.
    Senator Akaka. Senator Johnson.
    Senator Johnson. Thank you again, Mr. Chairman.
    You just mentioned onboarding. That was a new term. I had 
never heard that before going through the briefing. So can you 
just describe in a little greater what you mean by onboarding?
    Ms. Kichak. Right. Onboarding is trying not just to bring 
the new person in and show them their desk and wave goodbye. It 
is introducing them, making sure they are introduced to the 
history of the agency, the mission of the agency, and getting 
to meet the folks in the agency that they are going to have to 
deal with to be effective, making sure they know who the 
players are and finding them a mentor and a coach. So, that if 
they are met with any particular challenge, somebody could tell 
them who the right people to go to are.
    It is also giving them training in such things as the 
ethics required to operate in the Government environment and 
what some of the procurement rules are like and what some of 
the hiring rules are like. So, that they make sure that in 
their hiring and developing of staff they comply with veterans' 
preference and all the things that matter in managing a Federal 
workforce.
    So, onboarding is just making sure that when somebody 
enters into the agency and is new in the Senior Executive 
Service, they understand what is expected of them, so that they 
can deliver.
    Senator Johnson. How long a process do you think that 
normally takes?
    Ms. Kichak. Well, we think the first 3 months are critical, 
but in our developing of onboarding, we are committing to 
making sure we stay with that senior executive for their first 
year of service.
    Senator Johnson. OK. Thank you.
    You mentioned one of your top goals, recruiting a diverse 
applicant pool. How do you recruit? I mean how does the Federal 
Government recruit folks?
    Ms. Kichak. Well, we post our jobs on USAJOBS, and so 
sometimes we are expecting people to look there. But we are 
doing more with electronics because it is cost-effective. So, 
we are developing a recruiting tool for USAJOBS where we 
identify areas where we can send the announcement that might 
have the appropriate candidates. For example, if we are 
recruiting for a chief information--an information technology 
(IT)--person, we would be sending it to professional 
organizations that support folks with information technology.
    We are developing relationships with affinity groups that 
represent certain demographics of the Federal Government, so 
that we can let them know that those jobs are there. We 
participate in some of their functions, so that we appear, tell 
them what is going on in the Federal Government, tell them what 
opportunities we have and encourage them to apply.
    Senator Johnson. Is the recruitment process, is that across 
the government?
    I mean does every agency utilize the same recruitment 
process? Are they all separate? I mean do each agencies recruit 
in their own way?
    Ms. Kichak. Each agency recruits in its own way.
    Now, one of the initiatives that we have started, coming 
out of this recent PMC initiative, is that we are teaming with 
other agencies to do that, so that we can get out there more. 
One agency would have trouble going to a lot of different 
places. So, if we share the kinds of jobs we are looking for, 
then we will be talking about other agencies' jobs when we are 
out talking to people.
    Senator Johnson. How often are qualified applicants shared 
within agencies? In other words, if you are recruiting for one 
position, you end up with five or six really solid applicants, 
are those shared then throughout the Federal Government?
    Ms. Kichak. Currently, that is not happening. Now, that is 
one of the things that we are working on. In our hiring reform 
project we have suggested some legislative language that would 
allow us to share applications among agencies because there are 
some concerns that, if you apply for X job, do you want other 
people to know that you are looking? And so we have to share 
those applications appropriately, and we are, we have been 
working on ways to try to make that happen without violating 
people's rights.
    Senator Johnson. Right, right, right. You mentioned your 
second goal, improving the hiring process. I mean what are the 
current problems involved in the hiring process right now, the 
top two or three?
    Ms. Kichak. I think the problem is that we did--until very 
recently the only way to apply for an SES job was to write 
essays on how you have met certain capabilities, and those are 
the capabilities like how you led change, how you drove 
results. In other words, we did not use a resume that said I 
worked here and I had this job and I had this job.
    You had to write and say not only did I have this job, but 
in this job this is the difference I made. This was my impact, 
not just being there.
    And so the application process got very long. People had to 
write what was called ECQs and they could not use a resume. So, 
that was a disincentive for some people to apply.
    We have now made using resumes allowable. We are doing 
that, but certain agencies are fearful of doing it because that 
is not how they have always done business. And that is why we 
are training and working through these committees.
    Senator Johnson. Would you consider that process pretty 
detrimental to trying to attract people from the private sector 
that are totally not used to that type of process?
    Ms. Kichak. Well, I do know that it has been detrimental.
    I also know, though, that in executive recruitment 
sometimes in the private sector they use these grand assessment 
tools and put people through assessment programs to see what 
their leadership qualifications are. So, this paperwork 
exercise, although detrimental and we are trying to improve it, 
definitely helped us look for that extra edge.
    Again, the senior executives are in a very special place. 
They are very, very much the leaders. They are not just the 
supervisors and managers, who are critical to the Federal 
Government also, but they are the change agents. And so we are 
looking for extraordinary talent.
    Senator Johnson. How closely have we benchmarked the 
government's hiring process to the hiring process of major 
corporations that also are hiring top-flight managers for large 
jobs?
    Ms. Kichak. We continue to look at what the private sector 
does. I do not think we have a benchmark that would stand up to 
a rigorous analysis, however.
    Senator Johnson. OK. Again, thank you for your testimony.
    Ms. Kichak. You are welcome.
    Senator Johnson. Mr. Chairman.
    Senator Akaka. Thank you very much, Senator Johnson, for 
your questions.
    I want to say thank you very much, Ms. Kichak, for your 
responses.
    Ms. Kichak. Thank you very much.
    Senator Akaka. It certainly will be helpful to us.
    Ms. Kichak. Thank you.
    Senator Akaka. Thank you very much for being here.
    I would like to welcome today's second panel of witnesses: 
Ms. Carol Bonosaro who is President of the Senior Executives 
Association and Mr. Max Stier, President and Chief Executive 
Officer (CEO) of the Partnership for Public Service.
    As you both know, it is the custom of this Subcommittee to 
swear in all witnesses, and I ask you to please stand and raise 
your hand and take this oath.
    Do you solemnly swear that the testimony you are about to 
give this Subcommittee is the truth, the whole truth and 
nothing but the truth, so help you, God?
    Ms. Bonosaro. I do.
    Mr. Stier. Absolutely.
    Senator Akaka. Thank you very much. Let it be noted that 
the witnesses replied in the affirmative.
    And I want the witnesses to know that while your oral 
statements are limited to 5 minutes your entire statements will 
be included in the record.
    Ms. Bonosaro, will you please proceed with your statement?

   STATEMENT OF CAROL BONOSARO, PRESIDENT, SENIOR EXECUTIVES 
                          ASSOCIATION

    Ms. Bonosaro. Yes. Thank you, Chairman Akaka and Ranking 
Member Johnson, for the opportunity to testify on the 
challenges facing the Senior Executive Service.
    SEA has represented the interests of the career executive 
corps for the past 30 years, almost since the inception of the 
SES. The almost 7,000 SES executives are critical to a high 
performing government. However, we are now seeing troubling 
signs that are likely to affect the future corps. Difficulties 
with recruitment and retention, a pay and performance 
management system that requires reforms and a lack of focus on 
strengthening career leadership may well lead to loss of 
quality within the SES.
    In 2009, SEA surveyed GS-14s and 15s regarding their views 
of the SES. Over 12,000 responses confirmed there is a 
recruitment problem brewing. Potential applicants are losing 
interest in aspiring to the SES, and the detractors of the 
system outweigh the attractors. Comprehensive reform is 
necessary to address the currently skewed risk to reward ratio 
for the SES.
    Following is a summary of the major problem areas we see in 
our proposals for reform:
    First, SEA has consistently supported legislation to 
increase diversity in the SES. We believe this is achievable 
only through adequate data, a strong pipeline and strong 
central leadership. Although we applaud OPM Director Berry's 
reestablishing the SES Resource Office, it should be required 
in statute to ensure its continuity in future administrations.
    Second, over the years, we have observed a diminished role 
for career executives as layers of political appointees have 
multiplied, and many formerly career positions are filled by 
political appointees. The lack of career leadership at certain 
top positions has resulted in a loss of continuity and 
expertise as well as diminished opportunities for career 
advancement. Given the focus on streamlining operations, 
reducing redundant programs and identifying cost savings, 
agencies must have a strong leadership corps to oversee these 
initiatives on a long-term basis. Therefore, SEA recommends 
that agencies place high performing career executives in the 
Assistant Secretary for Administration and other key positions 
at each agency, specifically at the chief level.
    Third, given our experience with the SES pay and 
performance management system since 2004, SEA believes it must 
be modified to ensure both that quality applicants will aspire 
to the SES and that we will retain the experienced executives 
needed in these challenging times.
    The SES is not seen by many as a desirable career goal 
because senior executives take on more duties, work longer 
hours, yet receive no compensatory time, no locality pay and no 
guaranteed annual comparability pay raises, all of which are 
part of the General Schedule compensation. Further, SES annual 
pay increases are entirely discretionary, irrespective of 
performance. And although quotas are prohibited, it appears 
that agencies have applied de facto quotas and sometimes 
reduced executives' ratings without explanation, perhaps in the 
belief that reducing the number of outstanding ratings would 
enable their systems to achieve certification.
    For the system to work, senior executives have to believe 
that it is fair and transparent. To strengthen the system, we 
recommend that performance awards be included in the high-three 
annuity calculation. This would make SES an attractive career 
goal for the best applicants, and it recognizes the reality 
that performance awards have become an integral part of the SES 
compensation system.
    We also recommend that new senior executives receive a 5 
percent salary increase upon entry to mitigate some of the pay 
overlap between the SES and GS systems.
    In addition, we recommend that each senior executive be 
given a written explanation if his or her rating is lowered and 
that the use of quotas be statutorily prohibited.
    Fourth, building a pipeline of qualified candidates and 
creating a culture where continuing development is the norm is 
also important for a strong SES system. The commitment to both 
is uneven across government. Onboarding should be provided to 
new executives as well as continuing professional development 
throughout an executive's career.
    Fifth, many believe that the SES was created with the 
intent that it be a corps of mobile executives. However, the 
intent of the 1978 act was that the SES corps be flexible and 
that agencies be able to assign senior executives where needed. 
Mobility was not seen as an end in itself.
    Over 40 percent of the GS-14s and 15s responding to SEA's 
survey said the possibility of mandatory geographic 
reassignment was a top detractor to entering the SES. Many 
commented on the threat of being reassigned. Agencies should 
have the discretion to use mobility to meet strategic goals, 
but participation in rotation programs should not be a 
precondition to entry unless rotation opportunities are made 
available to the candidates to enable them to meet the 
requirement.
    OPM should also create a registry that includes information 
on all executives' experience, education, training and 
professional development interests for agencies to use when 
seeking candidates for vacancies as well as in time of critical 
need. Agencies can also use such information to manage 
succession planning, identify needed development and provide 
mobility opportunities for their executive corps.
    Finally, the complexities of the SES hiring process can be 
a deterrent to some applicants, especially those from outside 
government. We are concerned that the move to a resume-only 
process not diminish the need for careful assessment to ensure 
that applicants to the SES actually possess the required 
executive capabilities.
    Perhaps of even more concern is the suggestion that 
agencies abolish their qualifications review boards. Careful 
QRB consideration of SES selections is designed to ensure that 
merit principles are followed. Furthermore, OMB has found--OPM, 
pardon me, has found that QRBs add, at most, 2 weeks to the 
hiring process, often the lengthiest part of which stems from 
the higher level signoffs required at the agency level for SES 
hires.
    In conclusion, the areas of reform for the SES are wide-
ranging. Congress has the opportunity to consider comprehensive 
reform rather than a piecemeal approach. We look forward to 
working with the Subcommittee to ensure that the SES of 
tomorrow continues to be a high caliber leadership corps that 
accomplishes the goals of the Federal Government. Thank you.
    Senator Akaka. Thank you very much for your statement, Ms. 
Bonosaro.
    Mr. Stier, will you please proceed with your statement?

STATEMENT OF MAX STIER, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
                 PARTNERSHIP FOR PUBLIC SERVICE

    Mr. Stier. Thank you, Chairman Akaka, Senator Johnson. It 
is a pleasure to be here with you, and it is really important 
that you are focusing on this issue. It is truly urgent.
    In your opening remarks, both of you have commented on some 
of the critical needs here. Not only do we have obviously a 
world that is becoming more and more challenging, and more and 
more fast-paced, we have the resource constraints that are 
obviously very substantial. And it is really important to focus 
on a fact that no one has touched on yet, which is that just 
about half of the existing SES is eligible to retire right now. 
So the issue is truly urgent.
    Obviously, the work that the President's Management 
Council, OPM, and OMB has done has been terrific, and it is 
really important that they are making the SES a priority. We 
believe you can go further and should be going further, and 
there are eight areas that I would focus on for improvement.
    No. 1, this has been touched on already, talent needs to be 
a leadership priority in government. Senator Johnson, you asked 
the question about root causes. Today, talent is not viewed as 
a leadership priority it is viewed as an HR issue.
    As an example of this, the President has yet to meet with 
his senior executive corps. President George H. Bush and 
President George W. Bush both met with the SES. This is your 
career executive team. The President has never met with them, 
and I think that is a mistake.
    We need to focus on the SES as a critical leadership corps 
in government, and frankly, that is not happening. That is 
something I think you can help press in your oversight role.
    No. 2, we need to rebalance the career and political 
appointees; Carol has mentioned this. I think it is absolutely 
critical.
    Again, you look at root causes. The U.S. Government is 
unique among developed nations in the number and depth of 
political appointees. There is no other place like this. And 
the biggest root cause of management dysfunction in government 
is that you have short-term political leaders that are not 
aligned with the long-term needs of the organizations they run.
    As a result, you get a political appointee that is in 
office for 18 months to 2 years. They are incented to focus on 
crisis management and policy development, not on the long-term 
health of the organizations they are running.
    This to me, is a root cause, and we need to address it. One 
way we can address this is making sure that new political 
leaders are actually trained to deal with managing a 
government.
    Senator Johnson, you are faced with a million acronyms 
coming in here. You are getting trained on the spot right now.
    Most of the executive branch political appointees, they 
walk in and have no idea how to manage their SES. They are 
handed performance plans by the SES that they have done 
themselves, the SES. They have no idea how to manage and use 
them appropriately. We need to be investing in the political 
appointees, so that they can be better managers and leaders 
inside government.
    We also need to make sure that those senior management 
positions that Carol mentioned are career or term-appointed 
positions. That would make a huge difference.
    We also need to see that there is, Senator Johnson, a 10 
percent cap on the SES positions that are non-career/political. 
That cap ought to apply not just governmentwide but also to 
every single agency.
    You have certain agencies like the Department of Education 
where the number of political appointees is 20 percent. You 
have historical dumping grounds where there are a lot of 
political appointees put in place. That is a mistake. It 
creates a lot of dysfunction in those agencies.
    So at a minimum, we should have a cap at every agency as 
well as the governmentwide cap. And as I said before, the C-
Suite positions need to be career positions with term 
appointments and performance contracts.
    No. 3, we need to do an audit of the SES positions. I hope 
we can come back to the purpose of the SES, but what ended up 
happening in 1978 is all the super grades--16s, 17s, 18s--were 
all wrapped up into one SES group.
    The fact of the matter is that some of those were true 
managers. Some of those were technical experts. There are 
positions called Senior Level (SL) or Senior Technical (ST) 
people for those spots, but that is not actually how it played 
out. There are a lot of SES positions today that, frankly, are 
not really doing management. They are technical positions, and 
we need to segregate them and separate them.
    No. 4, mobility. And just to clarify with Ms. Bonosaro, we 
are not talking about geographic mobility. We are talking about 
mobility of experience. Today, 92 percent of the SES comes from 
within government, 4 out of 5 from within the same agency.
    We need to make sure we have cross-agency and cross-sector 
collaboration to address problems, and we must have an 
executive corps that has experiences in multiple places. And we 
believe very strongly that requiring mobility, either as an 
entry into the SES like the military does for the senior ranks 
already, or for the SES themselves, would be very powerful. I 
think this is critical.
    An analog to that would be to create a private sector 
exchange program. While there is a statute now that allows 
exchanges between nonprofit and the government, we actually 
need to see government executives experiencing the private 
sector, and vice versa. That would be a wonderful program and a 
great starting place.
    No. 5, recruiting and hiring is absolutely vital. Today, we 
have a system that is unique to government. The rest of the 
talent market has no appreciation for how to get in, and it is 
way too difficult for them to do that. Again, I would love to 
have an opportunity to come back to this.
    Resumes are the starting point. There are all kinds of 
things you can do afterwards. For most people the application 
process is so complicated they get chased away and they do not 
engage. This is one of the reasons why you do not see that much 
talent from the outside coming in.
    No. 6, we definitely need to be seeing more development of 
the SES. Again, the military does a great job of investing in 
their senior executives. We do not see that same level of 
investment on the civilian side. We propose something on the 
order of 2 or 3 percent of salary to be placed in a development 
fund for the SES. This is the one place we are asking for real 
money, but honestly, the investment will pay off in the long 
term.
    If you look at companies like International Business 
Machines (IBM), they are putting $700 million in their 
leadership training. They know that the Return on Investment 
(ROI) is great. We are not doing that in the Federal 
Government, and we should be.
    No. 7, there is no communication among the SES corps today. 
We should be creating an online community. We should be 
creating a mechanism by which the SES can communicate among 
itself--again, Carol raised this issue which is terrific.
    We ought to be able to understand the talents and abilities 
of a SES. We have no central repository for that information. 
That needs to be created. In today's era of communication 
technology, it is really easy to do and needs to be started 
here and now.
    And No. 8, we need better data. We have very little data in 
many different areas. This is the second major root cause 
challenging government. First, is the short-term political 
leader. The second is we do not have real-time information 
about performance of government. A good example of this in the 
SES context is we do not conduct general exit interviews.
    A great example of the problem here is in the Department of 
Homeland Security (DHS). It was set up in 2003. Between 2003 
and 2007, 72 percent of the SES left DHS, but no one knows why 
because we did not do any exit interviews. That is 
unacceptable.
    There are many other examples like that. I look forward to 
talking about them. This is a critical issue. The SES is less 
than 1 percent of the Federal workforce, but if you do not get 
this right, nothing else works.
    Thank you very much.
    Senator Akaka. Thank you very much.
    Senator Johnson. First of all, I would like to thank both 
of you for your testimony. I am going to have to leave for 
another meeting, but I would love to meet with both of you 
later on because this is such an incredibly important issue.
    So Mr. Chairman, again I apologize for having to leave, but 
I am sure you can ask some pretty good questions, and we will 
take a look at the transcript. Thank you very much.
    Mr. Stier. Thank you.
    Senator Akaka. Thank you very much, Senator Johnson, and 
wish him well on his next meeting.
    Thank you very much for your statement, Mr. Stier.
    Ms. Bonosaro, as you and others have noted, these are 
challenging times for the Federal workforce, and it was 
mentioned by Mr. Stier we are facing a time when there will be 
a huge number of retirees. Also, some of the public frustration 
over the economy and the budget deficit is being directed at 
civil servants. Will you please discuss, Ms. Bonosaro, how 
recent so-called scapegoating of Federal employees has impacted 
SES recruitment and its morale?
    Ms. Bonosaro. Well, as demoralizing as scapegoating can be, 
frankly, I think that there have been other issues that have 
impacted the morale to a greater degree. I mean to some extent 
the scapegoating has sort of come with the territory for many 
years. It gets worse at some times and dissipates at others.
    But I think that the challenge first of indeed doing, being 
expected to do more and more with less and less, the tremendous 
challenges posed by being an executive in government today are 
tough enough. And when you add to that issues such as, for 
example, the fact that some executives are indeed supervising 
those who work for them who earn more than they do, that can be 
a bit demoralizing.
    Max cited the lack of the President going off to meet with 
the Senior Executive Service. To some people, that may seem 
like a relatively frivolous thing, but in the importance of 
what they are doing, why is the President meeting with them so 
critical? But yet, we have executives who remember from what, 
30 years ago, very distinctly going over to Constitution Hall 
to meet with President Bush. And that really speaks to the 
issue of the recognition of the SES, the prestige, and that 
buys an awful lot.
    So people who are doing these very tough jobs, who may not 
be getting necessarily the financial rewards that they deserve, 
that is a real morale boost. And the executives who walked out 
of there, frankly, would have walked on water for the President 
at that point.
    But then you add some other issues. Right now, apart from 
the pay freeze, performance awards are being cut back in the 
SES, and these people are in a pay and performance management 
system, in which all pay adjustments and awards are totally 
dependent on performance. But yet, that is not happening.
    So I think there are a number of issues around this system 
itself that have, frankly, been a bit demoralizing. And so the 
bashing that has occurred in the media and by some politicians 
is sort of the cherry on the sundae, if you will.
    Senator Akaka. Thank you.
    Mr. Stier, a recurring theme of the Partnership's 2009 
report on the SES was that many senior executives are technical 
experts, not necessarily people who demonstrated management 
skills or an aptitude for leadership. Why do you think that 
this is, and what are the implications of this concern and this 
conclusion?
    Mr. Stier. Thank you, Senator Akaka. I think one of the 
reasons why this is, is that despite the many challenges that I 
think Carol appropriately identifies in getting to the SES, it 
is still the case that for many folks the SES is the next level 
up. It is the senior level in government and there is a 
prestige associated with it.
    And unfortunately, a lot of technical experts try to grasp 
that ring because they do not see the alternative, the SL or 
the ST position, as actually fulfilling that same level of 
prestige have not really permitted or created a kind of track 
that allows for recognition of a technical expert in a way that 
would permit them to follow a different road than that of the 
SES.
    I think part of the challenge ultimately is that we need to 
make sure that our very best technical experts, and those that 
are in fact engaged in true management, have an alternative 
career path that enables the recognition and rewards associated 
with their important contributions.
    Now the implications are that you have positions that in 
fact do require larger management and leadership 
responsibilities that are taken up by people who do not 
actually have the very best of those kinds of skills. I think 
the implication is that we do not get the best out of 
government. In our recommendations here we are suggesting a 
more thorough effort to create this alternative path and you 
can grant the process by conducting an audit.
    Right now, there are fewer than a thousand SL and ST 
positions, and there are 7,000 people in the SES. I do not know 
what the right balance is, but I do not think that is it I 
think we need to really do some triage to make sure that people 
are appropriately being recognized for their skills and the 
work they are engaged in. And then we need to truly expect 
performance of a different sort from the SES, one that really 
does highlight their leadership and management capacities.
    Ms. Bonosaro. Senator Akaka, may I speak to that question 
as well?
    Senator Akaka. Yes, Ms. Bonosaro.
    Ms. Bonosaro. Thank you. I have heard this argument made 
for many years, and I do not doubt that there are some 
positions in the SES that should not be, but no one has yet 
demonstrated this with any factual material, with any data.
    And in fact a survey that we did in cooperation with OPM 
several years ago, and I will be happy to give that data to the 
Committee, really demonstrated that the vast majority of these 
executives have a substantial span of supervising either 
resources or people.
    And I just want to point out too that ST positions, 
scientific and professional, are in fact world-class 
scientists, and that is not a dumping ground for anyone who 
does not belong in the SES. In fact, those STs would be very 
unhappy to think about anyone less than their caliber moving 
there.
    So our concern really with developing a two-track system is 
that what you do in the end, it is not inappropriate to 
consider use of senior level positions, but you do not want to 
inhibit management's ability to reassign where needed.
    So you may have, for example, an executive at the IRS who 
is running a very large operation, and the commissioner says 
gee, I want you in my office for a year to think about tax 
policy and supervise one person. You ought to be able to do 
that in the SES and be moved around where management needs you. 
But our main concern is, first, how many of these people are 
there in reality and second, let's not throw the baby out with 
the bath water, if you will.
    Senator Akaka. Thank you very much for your comments.
    Ms. Bonosaro, you testified that certain key positions 
should be reserved for career employees rather than political 
appointees. Agencies may be concerned that this change would 
take away their flexibility to appoint particular people or to 
bring senior leaders in from the private sector. Would you 
please elaborate on your recommendation and address these 
concerns?
    Ms. Bonosaro. Well, first, when the SES was created by 
statute in 1978 and then actually implemented in 1979, every 
Assistant Secretary for Administration throughout the Executive 
Branch was in fact a career executive. And over the years, 
obviously, that has all changed.
    We have three departments right now where, by statute, 
their Assistant Secretaries for Administration should be 
career, and it is Department of Transportation is one. Justice 
is another. And which one?
    Mr. Bransford: Health and Human Services (HHS).
    Ms. Bonosaro. So in fact, it has occurred in three 
departments.
    We think that for the reason of continuity, that Max was 
just talking about too, being able to accomplish management and 
policy changes in the long term really requires people of 
experience to be there over that long term.
    Also, what we have found--I think there is no doubt about 
it--is not only with this proliferation of political appointees 
you minimize opportunities for career advancement of career 
senior executives, but you also create so many layers that you 
inhibit communication between top leadership and the career 
executives who are there trying to meet the Administration's 
objectives.
    So for a number of reasons, we think that there are some 
positions that we recommend indeed should be reserved for 
career executives or at least where agencies should have to 
make the case as to why they should not be in a particular 
instance.
    Senator Akaka. Well, thank you for your response on that.
    I also ask you Mr. Stier whether you have any thoughts on 
that question.
    Mr. Stier. Absolutely. I think Carol covered the territory 
very well.
    I do think that one of the root causes of management 
challenges in government is that discontinuity between the 
short-term political leader and the long-term needs of the 
organizations that are being run. Having a set of career or 
term-appointed leaders with performance contracts in those 
management spots--I would include the Chief Financial Officers 
(CFOs), all the C-Suite management positions--would make a very 
big difference. So you could actually have longer-term focus on 
the set of issues that need to be addressed.
    I have not been around forever, but I have already seen 
numerous cycles where a political team comes in. It takes them 
a while to get their sea legs and figure out what they are 
supposed to do. By the time they actually get organized for 
action, they are on their way out, and nothing actually is 
accomplished.
    Then a new set comes in. They come up with the same set of 
plans, and then they are out.
    That is no way to run a government, and that is what we 
have today. It is getting worse, not better. So I think that it 
is really important to change these positions.
    The sole argument that I have heard on the other side is 
that if you make these positions career positions, then the new 
political teams will not trust those folks and those people 
actually will not be at the table. To the extent that there is 
any truth to that, I would rather have that problem than the 
problem we have today, which is a lot of management 
dysfunction.
    Senator Akaka. I want to followup with you on that. You 
testified that each agency should be held to a 10 percent cap 
on political appointees----
    Mr. Stier. Yes.
    Senator Akaka [continuing]. In the SES. Will you please 
discuss why you think this would be useful and whether you 
believe a 10 percent cap for each agency would create the right 
mixture of career and political SES members?
    Mr. Stier. If you let me go lower, I would. The truth of 
the matter is that we already have a 10 percent cap 
governmentwide. The governmentwide number is about 9 percent.
    The reason that cap was put in place was to ensure that we 
did not have a government and the senior executive corps that 
was overly politicized and provide continuity.
    So the idea originally was to keep politicals to a 
relatively small number, but what was not understood at the 
point at which that cap was put in place was that there was 
flexibility in individual agencies to raise that number quite a 
bit. As I mentioned earlier, the Department of Education is the 
best example of this. They have 20 percent of their SES in 
political positions, and that creates a very different dynamic. 
I know that they are not actually filling all those spots with 
politicals.
    We need to make sure over the long term that we have good 
hygiene. It is not good hygiene to have that depth of political 
participation in the leadership group, and I would love to see 
it be a lot less.
    Some of the best agencies have few political appointees. 
The Social Security Administration (SSA), a very well run 
agency, has one political appointee. You look at Social 
Security Administration, the Internal Revenue Service (IRS), 
the Federal Bureau of Investigations (FBI)--there are a lot of 
places where we have understood that we need a political 
leader, but beyond that, that political leader needs to work 
with the career executives to make things happen. That is, by 
far, the better model.
    I am not advocating something so radical as to make every 
other agency do just that, but there are some real outliers; 
the permission of agencies to go above that 10 percent cap is 
something I would hope could be addressed.
    Ms. Bonosaro. Mr. Chairman, I am going to ask one more time 
for the opportunity to weigh in simply because this is a 
recommendation of ours as well.
    Right now, the statutory cap on agencies is 25 percent. So 
indeed by law they can have 25 percent non-career. But equally 
important is the definition in the statute because right now it 
is authorized positions, not actually filled positions, and 
that is a very important distinction.
    So we believe that not only should the law say 10 percent 
per agency but that the 10 percent both governmentwide and per 
agency should be based upon filled positions, not authorized 
positions.
    Senator Akaka. Ms. Bonosaro, as you know, I have worked for 
a number of years to reform Federal hiring, and I introduced 
legislation last Congress to streamline the application 
process. The SES hiring process is even slower than the General 
Schedule. I want to hear from Mr. Stier on this as well.
    To you first, Ms. Bonosaro, in addition to encouraging 
agencies to make SES hiring a greater priority, what 
suggestions do you have on ways to streamline SES hiring?
    Ms. Bonosaro. Well, we have a number of suggestions--first, 
that Executive Resources Boards (ERBs) within agencies have to 
take a more active role in terms of managing the corps and the 
positions within the corps, and it varies a great deal across 
agencies, the degree to which they are involved.
    As I said, one of the real additions of time to the hiring 
process are the signoffs that are required going up the agency 
chain. I think each agency is going to have to deal with that 
issue on their own.
    We are also concerned, however, that as we move toward this 
resume-based system, as I indicated, that we not lose sight of 
ensuring that these candidates actually possess the executive 
corps qualifications. So I think we have to see agencies doing 
more with regard to structured interviews and more 
sophisticated assessment methods of candidates that are more 
common in the private sector, but which will be relatively new 
I think to government, but are needed really to ensure that we 
are doing an adequate assessment.
    I think there is just an awfully long time that it is 
taking an agency, given that these are very high level 
positions, and so I think there is probably a lot more care to 
be certain they are selecting the right person. But especially 
moving up the line for all the signoffs, and as I said, that is 
something that individual agencies are going to have to 
address.
    Senator Akaka. Thank you.
    Mr. Stier, your thoughts on this issue as well.
    Mr. Stier. Great. Well, thank you, Chairman Akaka. I would 
offer at least five suggestions on this front, starting again 
with the leadership engagement.
    Carol mentioned the challenge of actually getting approval 
all along the line. Part of the issue is that there is no 
drive, there is no ownership from the top of the house, saying: 
Guess what? This is the most critical resource we have here. We 
need to hold our folks accountable to get the right talent and 
meet the needs that Carol is describing as quickly as we 
possibly can.
    And I think that agencies respond to their leadership's 
priorities. If the priority among the leadership is to make 
sure they are staffed with the best talent possible, then more 
investment will occur there. So that would be No. 1.
    No. 2, there needs to be an effort to recruit more 
effectively. By and large--and Senator Johnson asked this 
question--it is a passive recruiting process. It is a post and 
pray that exists for the SES as well as most other jobs.
    In the private sector, there is an investment in executive 
search firms in order to be able to find the right talent. When 
you are talking about critical talent like the talent is going 
in the SES, we ought to be making sure we spend the money 
necessary on the front end to get the broadest and most 
effective pool possible. Investing in executive search would 
make a big difference.
    Third, the executive resource boards in the agencies are 
the ones that are owning this, and it is very uneven as to 
whether or not they have the resources staff and skills 
necessary to do this effectively, and that is going to be very 
critical.
    Fourth, the hiring process. Look, the resume is not the be-
all-end-all. But it is what most talent in the world at large 
uses as their calling card, their way of determining whether 
there is a first sign of interest. That is not what the first 
hurdle that most folks have to deal with in coming into the 
SES. They have massive essays that they have to fill out.
    The truth of the matter is that it is the very rare person 
that is going to subject themselves to that from the outside. 
There are some folks from the inside who might because they 
know how it works and they are willing to put that investment 
in.
    But from the outside, and I have dealt with a lot of these 
people who are incredible leaders of the top executive programs 
in major corporations, who want to come into government, and 
they say: Forget it, not worth it. I do not understand this 
process and I am going someplace else.
    That is a real problem.
    We ought to have sharing of best qualified lists. Again, 
this was a question that was raised earlier. We ought to be 
able to make sure that if the due care has been taken by one 
agency and they found some incredible people, that information 
can be shared and those individuals can be hired by another 
agency that may need a similar type of talent.
    Finally data--we really need information that is usable for 
us to understand if the system is working in the way it ought 
to be, and that means surveying the managers to understand 
whether we are getting the right talent in. It also means 
surveying the applicants, so we understand what their 
experience is like. And to your point about the quickness, we 
need data on the time to hire. Those are three points that 
would be very easy to collect, and that information would be 
very helpful in driving the right kind of changes.
    I gave you more than five. I am sorry.
    Senator Akaka. Thank you.
    Ms. Bonosaro, I share some of your concerns about 
transparency in a pay-for-performance system. The recent 
dismantling of the National Security Personnel System (NSPS) at 
the Department of Defense (DOD) shows how difficult it is to 
get pay for performance right. Please elaborate on your 
concerns with the current SES pay-for-performance system and 
ways that we can improve it.
    Ms. Bonosaro. Well, to some degree, the system has become 
very complex. If you argue that the hiring system is complex, I 
would argue that how we are dealing with performance management 
and pay adjustments is even more complicated.
    I think in an effort to meet if not what is required, 
certainly what is perceived to be required, in order to gain 
certification, a number of agencies have developed 
extraordinarily elaborate systems. I have seen charts that 
require all sorts of computations, after executives' 
performance ratings have been determined, to make a 
determination with regard to a pay adjustment or with regard to 
a performance award. So it has become a very complex system, 
and I think one that in many places becomes very paper-
intensive, and that is a problem.
    Second problem is that I think while there certainly has 
been a push toward having results-oriented performance 
standards, again this has become a somewhat uneven enterprise 
because I have talked to executives who have said: Look, my 
boss said you and I both know what you need to do. Let's just 
write these performance standards so they pass muster, then go 
do the job that we both know you need to do.
    So what is the disconnect there? It becomes a problem.
    The third issue is that many executives are totally unaware 
of what their agency's compensation policies are, how the 
ratings happen to fall out until they see what OPM publishes.
    And most importantly, as I indicated, some executives have 
had their ratings summarily reduced without explanation, and 
the only apparent explanation is a desire to meet some sort of 
normal curve. And that becomes an issue because then the system 
is not seen as something that is fairly, in fact, judging 
performance.
    So we think a number of things need to be done.
    Rating quotas are in fact prohibited by regulation right 
now. Perhaps prohibiting them by statute might convince 
agencies that we are more serious about that.
    I think we have really got to recognize that performance 
awards have become an important part of compensation, and I 
know that this is not the time we are supposed to talk about 
things like this, but we do think that it would be really 
important to include them in the computation of the high-three. 
And in fact, there is some precedent for doing that because 
Veterans Administration (VA) nurse executives have their 
special pay counted in to their high-three, and I think the 
pharmacists do as well. So that is one thing that can be done, 
and requiring transparency, outlawing quotas.
    I know that the PMC has been looking very hard at why there 
is so much variation among agencies in their ratings and 
performance awards. So that is something that is being looked 
at internally, but those are just a few of the things that we 
think need to be done.
    Senator Akaka. Thank you.
    Mr. Stier, you testified that some form of joint work 
experience should be phased in as a requirement for entry into 
SES. Will you please elaborate on how phase-in should be 
carried out?
    Mr. Stier. The reason why we are advocating for phasing it 
in is that there is the question about whether or not you have 
a pipeline available today of people who have already had those 
joint experiences that would then be available for the SES. My 
own perspective is, frankly, that there are actually probably a 
fair number of folks out there who have.
    But I think that the idea of giving a year or two. I think 
you do not need anything more than that in order to be able to 
give an opportunity to those who have perhaps participated in 
government for a long time, who want to join the SES, who see 
this then as a new requirement that they did not previously 
anticipate, to give them that opportunity to compete for those 
original SES positions. I think a year or two would be a 
reasonable time period to permit putting in such a requirement.
    But the truth is that in the world we live in today the 
kinds of challenges that the executives in government, the true 
managerial executives, need to address are going to be cross-
organizational, or a large amount of them are going to be 
cross-organizational or cross-sector or cross-level of 
government. We need to have people in government in those 
positions who have had experience in multiple places, and I 
know that both from what I see anecdotally as well as I see 
from best business practice outside the government. It is 
really important.
    We see this even in government with the joint duty 
requirement that the military has and the impact that it has 
had in the ability of the services to actually integrate their 
work together. It is something that is high time and coming.
    There is an argument that I have heard raised today, which 
is actually the first time I have heard raised today, raised 
ever, that the reform in 1978 was not in fact intended to do 
this. I do not think that is an argument we need to have. If it 
was not what was intended in 1978, it is what should be 
happening today.
    Senator Akaka. Ms. Bonosaro, your testimony contains 
specific recommendations for implementing rotations within the 
SES. However, you cautioned that rotations should be required 
only, only if there is a business purpose, as part of a 
comprehensive plan. Do you believe if your recommendations are 
followed that a strategic mandatory rotation program would 
strengthen agencies and the SES workforce?
    Ms. Bonosaro. Well, as Max was speaking, I was just sitting 
here and thinking about the Department of Veterans Affairs and 
saying of what purpose would it serve to have all of these VA 
hospital directors serving in other agencies, and I am not sure 
I understand one. I do not think there is necessarily a 
business purpose. They may have come from the private sector, 
but it is doubtful because they would be taking a tremendous 
cut.
    I think that there clearly is very often a business 
purpose. Whether it is for purposes of developing executives so 
that agencies have a good succession plan in place to fill what 
they anticipate will be vacancies, whether it is the business 
purpose of continuing the development of executives so that 
they are of more value to them, that is fine.
    I think that what we ought to do is look to a place like 
the Department of the Navy which has done a very intelligent 
job of this. They have in fact collected information on all of 
their executives that not only looks at their experience and 
their education, and so on, but their interests as well as any 
personal issues they might have that would preclude them from 
reassignments. They put that all together with the needs of the 
Navy, and it is very interesting because it becomes a win-win 
for everyone. So they are able to make intelligent career moves 
there that benefit the Department and that benefit the 
executives, but it is a very thoughtful process. And I think 
that is what does concern us.
    Now as for entry, it is going to take, I think, more than a 
year to enable people to get a leg up and be able to get these 
rotations, and it is going to take some effort on the part of 
the government to make them available. And even then, I think 
it is a matter of does it make sense to require it for every 
position in every agency that is an SES position.
    Senator Akaka. Yes, Mr. Stier.
    Mr. Stier. Thank you, Chairman Akaka. I just want to 
clarify for the record that the VA hospitals are under Title 
38. So they are actually treated differently.
    Ms. Bonosaro. No, that is not true. There are senior 
executives running VA hospitals.
    Mr. Stier. My understanding is that at least for the 
doctors corps that it is Title 38.
    Ms. Bonosaro. For doctors.
    Mr. Stier. But my point would be that, again, even as you 
stated, there are a fair number of them that actually do come 
from the private sector, and that multiplicity of experience is 
quite powerful.
    I agree with Carol that this has to be done carefully, but 
care does not mean that it should not be done.
    And I think that the urgency that we started with is 
something that we also have to keep our eye on. We have half of 
the SES eligible to retire now. I think if we want to see a new 
cohort of talent coming in, we need to put these requirements 
in soon.
    Senator Akaka. Mr. Stier, talking about interagency 
rotation experience, I believe that this experience is valuable 
and can enhance an employee's professional development. 
However, there are occasions where individuals' interagency 
experience is not well matched to the skills they will need 
when they return to their home agency. Do you have suggestions 
for agencies on how to better incorporate rotational experience 
in their strategic and human capital planning?
    Mr. Stier. Well, Mr. Chairman, I think this is a real 
challenge. I think, unfortunately, the culture today in 
government is such that in many instances when somebody is 
asked to move or rotate it is a way of getting rid of problems 
rather than viewing it as a developmental opportunity. And so I 
am not minimizing the challenges associated with trying to, in 
essence, change the culture of the executive corps, so that 
rotation becomes more the norm.
    Ultimately, rather than reorganizing the big boxes, the way 
we are actually going to get agencies to work better together 
is to have some of that talent have experience moving back and 
forth.
    So very specifically, some ideas: I do think it is easier 
to require mobility as an entry into the SES. That would be a 
more manageable way to ensure that you are talking about a 
cohort in the executive level that has experiences from 
multiple places.
    I think that building it truly into the candidate 
development programs would be quite valuable, as well, and 
really associating it with some benefits, so that these people 
are also given mentors, so people that are looking out for them 
in both the new organization as well as potentially from the 
organization they are coming from, to make sure that they get 
support.
    We must ensure that we are selecting very carefully at the 
front end a set of people who will draw other talent after 
them. If you get the very best who are taking advantage of 
mobility as a professional development opportunity others will 
want to follow, and that will create the change that we want.
    Senator Akaka. Ms. Bonosaro and Mr. Stier, this will be my 
final question. I would like both of you to answer it, 
beginning with Mr. Stier.
    Legislation that costs a lot of money to implement will be 
difficult to move through Congress. So my question to you is 
what are your top three recommendations for SES reforms that 
would cost the government little or no additional money?
    Mr. Stier. No. 1, the issue around mobility does not have 
to cost the government a penny. You are still talking about 
talent that is doing different jobs. They will do it better, 
and the payoff will be very attractive over the long term.
    No. 2, rebalancing the career and political appointments, 
again, does not cost a cent. In fact, I would be all for 
reducing the number of political appointees in general. You 
will save yourself some money that way. So that would be a way 
of ensuring that you have long-term continuity among the 
management group and that you do not have too many political 
appointees in any individual place.
    And No. 3, I would focus on recruiting and hiring. What we 
have seen certainly, even moving into the resume-based approach 
among the agencies, there is a challenge at the front end. But 
the agencies that have done this find it to be well worth 
doing, it does not have to require a lot of money.
    Practically all these things practically that I have 
recommended today can be done cost-free. In fact over time they 
will produce real value for the American people. And even the 
places where we suggest some additional money, like the 
developmental fund for the SES, that again will pay for itself 
over the long term. Organizations both inside government, like 
the military, and outside that have made these investments. 
Thank you.
    Senator Akaka. Thank you so much for that response. Ms. 
Bonosaro.
    Ms. Bonosaro. Well, we are, Max and I are, both singing 
from the same hymn book about increasing career leadership and 
minimizing political appointments, and indeed there is probably 
a cost savings there.
    Unfortunately, our other big issue though with regard to 
fixing the pay system, while it may not cost very much at all 
in fact, given the very small numbers involved, I recognize the 
difficulty that you are speaking of. But I am afraid if we do 
not do something in that regard, whether it is dealing with 
these performance awards as the high-three or doing more to fix 
the pay system generally because right now there are 88 
separate pay systems in the government that are equivalent to 
the SES. So this is not a terribly attractive place to be at 
the moment. So that is a second point.
    And then third, I guess I would probably characterize a 
number of actions under the rubric of restoring prestige. I 
think that OPM creating a governmentwide database of all of 
these executives that agencies would look to when they have 
vacancies, when they have critical needs, would demonstrate 
that this is a group that is extremely valuable to government 
and we do not always have to go outside government. I do not 
disagree with recruiting outside government. There is an awful 
lot of talent inside government as well.
    And a number of things that we can do as well to improve 
the candidate development programs, for example, and our 
consideration of those who graduate from them for SES positions 
can also help to increase diversity in the SES too.
    So there are a number of things that we can, I think, do 
that do not cost very much money. But some of them indeed will 
cost money, unfortunately.
    Senator Akaka. Well, I thank you so much. Any further 
comments, either of you?
    Mr. Stier. Thank you, Mr. Chairman, for focusing on this. 
This is a critical issue, and I know you have a lot on your 
plate, but it would make a real difference for you and for 
Congress to take this on.
    Senator Akaka. Thank you. I really appreciate your 
responses. It will be helpful to us.
    And I want to wish you well in your work as, Ms. Bonosaro, 
as President of the Senior Executives Association and Mr. 
Stier, as President and Chief Executive of the Partnership for 
Public Service, with those groups. Thank you very much.
    I want to thank all of our witnesses today. In these 
challenging times, focus must be placed on strengthening our 
government executives and giving them the tools necessary to 
drive reforms and guide the Federal workforce. You have 
addressed many important issues facing our government's 
leadership corps and given us constructive suggestions on how 
to strengthen the SES.
    The hearing record will be open for 1 week for any 
additional statements or questions other members may have.
    And again, I want to thank you once again for your 
suggestions here and your recommendations.
    This hearing is adjourned.
    [Whereupon, at 11:51 a.m., the Subcommittee was adjourned.]




                            A P P E N D I X

                              ----------                              




<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


                                 <all>

</pre></body></html>
